WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

DEC 1 1 2020
OFFICE OF THE CLERK

No. 20-740
Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Respondents)

v.

Jim Bognet, et al.
(Petitioners)

I DO NOT INTEND TO FILE A RESPONSE to the
one is requested by the Court.

petition for a writ of certiorari unless

Please check the appropriate boxes:
0

Please enter my appearance as Counsel of Record for

all respondents.

ent all respondents. Please enter my
X There are multiple respondents, and I do not repres
dent(s):
respon
ing
follow
appearance as Counsel of Record for the
Board of Elections
Please enter my appearance for the Lancaster County

the United States.
0 I am a member of the Bar of the Supreme Court of
. Should a response be requested,
I3 I am not presently a member of the Bar of this Court
the response will be f ed by a Bar member.
Signature
Date:
(Type or print) Name

Christina L. Hausner, Lancaster County Solicitor
. 0 Miss
0 Mrs.
0 Ms.
0 Mr.

Firm Lancaster County Solicitor's Office
Address
City & State
Phone

150 North Queen Street
Lancaster, PA

Zip

17603

717 735 1584

COUNSEL OR TO PETITIONERS IF
SEND A COPY OF THIS FORM TO PETITIONER'S
THE RECIPIENT(S) OF A COPY
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF
SERVICE IS REQUIRED
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF

RECEIVED

Cc:

Nicolas Varone (nvarone@cooperkirk.com)

DEC 3 0 2020
THE CLERK

SUPREMECOURT, U.S.
79-3034 or via the internet at
Obtain status of case on the docket. By phone at 202-4
docket number available.
http://www.supremecourtus.gov. Have the Supreme Court

Office of the Solicitor
150 North Queen Street
Suite #714
Lancaster, PA 17603
Phone: 717-735-1584
Fax: 717-293-7208
www.co.lancaster.pa.us

December 11, 2020

Scott S. Harris
Clerk of Courts
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Jim Bognet et al. vs. Kathy Boockvar,
Secretary of Pennsylvania, et. al.
No. 20-740

Dear Mr. Harris:
Enclosed for filing please find one original and one copy of the Lancaster
County Board of Elections Wavier related to the above matter. Kindly file the
original and time stamp the copy and return it in the enclosed self-addressed
stamped envelope.
Thank you.
Sincerely,
C
-7
Tammy L. Bender
Administrative Assistant

Enclosures

RECEIVED
DEC 3 0 2020
O COURTLER
U.S.
SUPREME

